0

BECKER GALLAGHER
Briefs

and

Supreme Court ofthe United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound and
40 bound copies of the foregoing Brief for Respondent
in 20-1312, Xavier Becerra, Secretary of Health and
Human Services v. Empire Health Foundation, for
Valley Hospital Medical Center, was sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Next Day and e-mail service to the following
parties listed below, this 18th day of October 2021:
Brian H. Fletcher
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Petitioner
Daniel J. Hettich
Counsel of Record
Ashley C. Parrish
Jeffrey S. Bucholtz
Alek Pivec
King & Spalding LLP
1700 Pennsylvania Ave. NW
Washington, DC 20006
(202) 626-9128
dhettich@kslaw.com

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001

www.beckergallagher.com

, 8790 Governor's Hill Drive

Suite 102
· Cincinnati, Ohio 45249

Franklin Square
· 1300 I Street, NW, Suite 400E
, Washington, DC 20005

Anne M. Voigts
Matthew V.H. Noller
King & Spalding LLP
601 S. California Ave.
Suite 100
Palo Alto, CA 94304
(650) 422-6700

Counsel for Respondent

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 18, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

